attachment # 3

CERTIFICATE OF COMPLIANCE WITH RULE 33.1(h)
Petitioner, Nina Shahin, who prepared this Petition in pro se representation,
certifies, as required by Supreme Court Rule 33.1(h), that the Petition for Writ of
Prohibition and/or Writ of Mandamus contains 8,202 words, excluding the parts of
the petition that are exempted by Supreme Court Rule 33.1.(d).
Further, Nina Shahin declares under the penalty of perjury under the laws of
the United States of America that the foregoing is true and correct.
Executed on this eighth day of May, 2020.
For the Petitioner:

ofClnjOy <£PuoJL}
NINA SHAHIN, CPA, MAS, MST

May 8, 2020

Additional material
from this filing is
available in the
Clerk's Office.

